GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814

February 20, 2020
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First St., NE
Washington, D.C. 20543
Re: No. 19-605, Arizona v. John Philip Martin
Dear Mr. Harris,
I am writing on behalf of respondent to request an agreed-upon extension of time in which
to file the opposition to the petition for a writ of certiorari in this case. The petition was filed on
November 7, 2019, and the Court requested a response on January 6, 2020. The response is
currently due, on one extension, on March 6, 2020. Due to the press of other business, I am hereby
requesting a final 30-day extension, through April 6, 2020 (a Monday).
Counsel for petitioner State of Arizona has authorized me to represent that petitioner does
not object to this request.
Please let me know if you require any further information. Thank you very much for your
time and assistance.
Very truly yours,

Sarah E. Harrington

cc: Petitioner’s counsel

(202) 362-0636
(866) 574-2033 fax

www.goldsteinrussell.com

